No. 20In the

Supreme Court of the United States
HMONG 2, HMONG 3, HMONG 4, AND HMONG 5,
FICTITIOUSLY NAMED INDIVIDUALS,
Petitioners,
v.
UNITED STATES OF AMERICA
AND CENTRAL INTELLIGENCE AGENCY,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Herman Franck
Counsel of Record
Franck & A ssociates
910 Florin Road, Suite 212
Sacramento, California 95831
(916) 447-8400
franckhermanlaw88@yahoo.com
Attorneys for Petitioners

297951

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Whether the Court should establish a breach of
promise exception to the non-justiciable political
question rule?

2.

Whether the Court should establish a breach of treaty
exception to the non-justiciable political question rule?

3.

Whether the Court should establish a war crimes
exception to the non-justiciable political question rule?

ii
LIST OF PARTIES
The parties below are listed in the caption.
Petitioners Hmong 2, 3, 4, and 5 are survivors of the
atrocities committed by the communist government of
Laos, and have lost the rest of their family members
as a result of those atrocities. Petitioners are suing
under fictitious names to avoid retaliation by the Laos
government. Hmong 2 – 5 reside within the Eastern
District of California.
Defendants United States of America and Central
Intelligence Agency are Respondents.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioners are all natural persons.
The United States of America is a sovereign nation. The
Central Intelligence Agency is an agency of the United
States of America.

iv
RELATED CASES
1.

Hmong 1 v. Lao People’s Democratic Republic et al,
Case No. 2:15-cv-02349-TLN-AC, U.S. District Court
for the Eastern District of California. Judgment
entered August 17, 2018.

2.

Hmong 1 v. Lao People’s Democratic Republic et
al, Case No. 17-16828, U.S. Court of Appeals for the
Ninth Circuit. Judgment entered January 14, 2019.

3.

Hmong 1 v. Lao People’s Democratic Republic et
al, Case No. 18-1315, Supreme Court of the United
States. Petition for Writ of Certiorari denied June 17,
2019. See 139 S.Ct. 2721 (2019).

4.

Savang et al. v. Lao People’s Democratic Republic
et al., Case No. 16-cv-02037-VC, U.S. District Court
for the Eastern District of California. Judgment of
entered June 20, 2018.

5.

Hmong 2 et al. v. United States, CIA, Case No. 17-cv00927-TLN-AC, U.S. District Court for the Eastern
District of California. Judgment entered August 18,
2017.

6.

Hmong 2 et al. v. United States, CIA, Case No.: 1915226, U.S. Court of Appeals for the Ninth Circuit.
Judgment entered March 30, 2020

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDISCTION . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASON THE WRIT SHOULD BE ISSUED . . . . . 10
A. Rev iew is War ranted to Resolve an
Important Federal Question of Whether
the Court Should Establish a Breach of
Promise Exception to the Non-Justiciable
Political Question Rule . . . . . . . . . . . . . . . . . . . . . 10

vi
Table of Contents
Page
B.

Review is Warranted Because This Case
Presents an Important Federal Question of
Whether the Court Should Establish a Breach
of Treaty Exception to the Non-Justiciable
Political Question Rule . . . . . . . . . . . . . . . . . . . . . 21

C. Review is Warranted Because This Case
Presents an Important Federal Question of
Whether the Court Should Establish a War
Crimes Exception to the Non-Justiciable
Political Question Rule . . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

vii
TABLE OF APPENDICES
Page
A P PEN DI X A — M EMOR A N DU M OF
T H E U N I T ED S TAT E S C OU RT OF
APPEALS FOR THE NINTH CIRCUIT,
DATED MARCH 30, 2020 . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF CALIFORNIA,
DATED JANUARY 18, 2019 . . . . . . . . . . . . . . . . . . . 5a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Al Shimari v. CACI Premier Technology, Inc.,
840 F.3d 147 (4th Cir. 2016)  . . . . . . . . . . . . . . . . .  17, 32
Alperin v. Vatican Bank,
410 F.3d 532 (9th Cir. 2005) . . . . . . . . . . . . . . . . . 30, 31
Baker v. Carr,
369 U.S. 186 (1962)  . . . . . . . . . . . . . . . . . . . . . . 7, 30, 31
Hackney v. Morelite Const.,
418 A.2d 1062 (DC Cir. 1980) . . . . . . . . . . . . . . . . 19, 25
Hmong 1 v. Lao People’s Democratic Republic,
139 S.Ct. 2721 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 32
McGirt v. Oklahoma,
591 U.S.
(2020) . . . . . . . . . . . . . . . . . . . . . . . passim
Newdow v. Lefevre,
598 F.3d 638 (9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 9
Presbyterian Church of Sudan v.
Talisman Energy,
582 F.3d 244 (2d Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 23
Republic of Marshall Islands v. United States,
865 F.3d 1187 (9th Cir. 2017) . . . . . . . . . . 10, 22, 23, 24
Wolf v. Crosby,
377 A.2d 22, 26 (Del. Ch. 1977) . . . . . . . . . . . . . . . . . 19

ix
Cited Authorities
Page
STAT U T ES A N D RU LES , U N IT ED STAT ES
CONSTITUTION
U.S. Const., Article I, § 10, cl. 1 . . . . . . . . . . . . . . 2, 11, 24
U.S. Const., Article II, § 1 . . . . . . . . . . . . . . . . . . . . . . 2, 29
U.S. Const., Article II, § 2 . . . . . . . . . . . . . . . . . . . 2, 22, 29
U.S. Const., Article VI, § 2 . . . . . . . . . . . . . . . . . . . . . 2, 21
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Evid. 801(d)(2)(B)  . . . . . . . . . . . . . . . . . . . . . . . . 20
Fed. R. Civ. P. 12(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . 21, 33
Sup. Ct. R. 10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

1
OPINION BELOW
The March 30, 2020 opinion of the United States
Court of Appeals for the Ninth Circuit was ordered not
for publication. The Ninth Circuit affirmed the August
18, 2017 Decision and Judgment of the United States
District Court for the Eastern District of California. See
appendices A and B, respectively.
STATEMENT OF JURISDISCTION
This Court’s jurisdiction is invoked under 28 U.S.C.
section 1254(1).
Petitioners are party plaintiffs in this action, and
brings this Petition seeking review of the Decision of the
United States Court of Appeals for the Ninth Circuit,
AFFIRMING the District Court’s dismissal of the action.
The Ninth Circuit’s opinion was rendered on March
30, 2020 (See Appendix A).
This petition is filed pursuant to the Court’s Mach
19, 2020 Order on Filing Deadlines, which states in part:
IT IS ORDERED that the deadline to file any
petition for a writ of certiorari due on or after
the date of this order is extended to 150 days
from the date of the lower court judgment,
order denying discretionary review, or order
denying a timely petition for rehearing. See
Rules 13.1 and 13.3.

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1.

The non-justiciable political issue involves
the Executive Branch’s powers under Article
II, Sections 1 (“The executive power shall be
vested in the President of the United States
of America”) and 2 (“Powers of the President,
including Commander-in-Chief of the Army and
Navy, and the power, by and with the advice and
consent of the Senate, to make treaties, provided
two thirds of the Senators present concur”) of the
Constitution of United States of America.

2.

The Supremacy Clause of the United States
Constitution, A rticle VI, section 2: “ This
Constitution, and the Laws of the United States
which shall be made in pursuance thereof, and
all Treaties made, or which shall be made, under
the authority of the United States, shall be the
supreme Law of the Land; and the Judges in
every State shall be bound thereby, any Thing
in the Constitution or Laws of any State to the
contrary notwithstanding.”

3.

The “Contracts Clause” of the United States
Constitution, Article I, section 10, Clause 1: “No
State shall enter into any Treaty, Alliance, or
Confederation; grant Letters of Marque and
Reprisal; coin Money; emit Bills of Credit; make
any Thing but gold and silver Coin a Tender in
Payment of Debts; pass any Bill of Attainder, ex
post facto Law, or Law impairing the Obligation
of Contracts, or grant any Title of Nobility.”

3
STATEMENT OF THE CASE
On May 2 , 2017, f ictitiously-named plaintiffs
[Petitioners herein] Hmong 2, Hmong, 3, Hmong 4,
and Hmong 5 a Complaint for violation of the Federal
Torts Claim Act was filed by the plaintiffs on behalf of
themselves and other class members similarly situated.
The complaint requests compensatory damages
[Complaint, para. 166], class action status [Complaint,
paras. 119-120, 155], declaratory relief [Complaint,
para. 173], and injunctive relief. Plaintiffs requested the
following injunctive relief [Complaint, para. 170]: “Specific
performance of the treaty/agreement whereby the USA
agreed to protect and safeguard the Hmong people from
the Laotian government.”
The plaintiffs complied with the FTCA procedure.
They filed a Federal Claim Act on September 6, 2016,
which was not responded to within the 6-month-period of
time to submit a response to the claim [Complaint, paras.
122-123].
Plaintiffs are survivors of the aftermath of the United
States/CIA’s Secret War in Laos [Complaint, paras. 6-9].
A promise was made between the United States through
President Eisenhower and again through President John
F. Kennedy with the King of Laos to use the Hmong
citizens of Royal Laos as soldiers for the US/CIA’s army
[Complaint, paras. 30, 35,]. The deal was simple: give
us your Hmong soldiers, and whatever the outcome of
the war, we (USA) will protect the Hmong [Complaint,
paras. 30, 35, 65]. The King said yes, and the Hmong were
generally hired by the US CIA and trained to do battle in

4
Laos [Complaint, paras. 30, 44-45, 66, 147-148]. The main
mission was to disrupt the Ho Chi Minh Trail, which winds
in and out of Laos and Vietnam [Complaint, para. 147].
As part of its secret war in Laos, the US/CIA used
Air America airplanes to transport large amounts of topgrade military weapons into Laos. The USA hired the
Hmong as its own soldiers [Complaint, paras. 24, 44, 60,
61]. The USA weapons were used by the Hmong to fight
the communists as directed by the USA/CIA [Complaint,
paras. 24, 44, 60, 61].
The complaint describes how the USA brokered a
peace treaty during 1973 Vientiane Ceasefire Agreement,
and pulled out of Laos [Complaint, paras. Thereafter,
the communist took over Laos, and began a process of
genocide and torture against Hmong people who had
helped the USA [Complaint, paras. 2-5; 147-148].
According to a statement made by Lao General
Comrade Kham-One Chittany [Complaint, exhibit G
thereto; para. 40E]:
There Is an Order sent to all divisions…in the
years 2005-2015, to completely exterminate
all American Vang Pao reactionaries hiding in
the jungles and forests, in the years 2015-2020
to completely exterminate all reactionaries
within the country who are soldiers of the
C.I.A., and all of their remaining children and
grandchildren.
The complaint alleges that USA aided and abetted the
conduct of the Laotian communist government in seeking

5
to exterminate the Hmong who had participated in the
“secret war.” See Complaint, paras. 21-73. See especially
paragraphs 29-31.
29. The Unites States through the CIA has
purposely aided and abetted the Communist
regime of Laos to commit the atrocities against
the Hmong people in Laos. The United States
through its CIA purposefully brought huge
airplane loads of weapons into Laos through
Air America.
30. The United States through the CIA
convinced the King of Laos to order the Hmong
people to fight for the USA, promised the King
that the USA would take car[e] of the propel
[sic] of Laos and the Hmong people whether or
not the USA won or lost the secret war in Laos.
The Secret War was administered by the CIA
in Laos.
31. Following the signing of the Peace Accord
in 1973, the USA purposefully left Laos with
the intent NOT to perform its agreement to
protect the people of Laos and the Hmong
people from the new Communist regime. In
doing these purposeful acts, the USA had
actual knowledge that the ensuing takeover
by the Communist regime would result in the
atrocities committed against the Hmong people,
and similar atrocities committed against
Laotian people.
The complaint alleges that the USA was fully aware
that the communists would seize the USA weapons and use

6
those to commit atrocities against the Hmong [Complaint,
paras. 40-42; 70-71]. They used guns, ammunition, tanks,
airplanes, barrels of poison left over by the USA, to
hunt down and kill any Hmong or their family who were
connected in any way to the USA war in Laos. As one
of their top generals, General Bounchanh, stated, “[The
Hmong] will be exterminated to their last root”
The complaint describes the following published
documentary video, Hunted Like Animals [Attached as
Exhibit A-1 to the Complaint; see also Complaint, paras.
12-14]. Those initial fifteen pages include the following
information:
(a) History of Laos segment (8:23)
(b) King of Laos at White House (9:58)
(c) King recommendation to have the Hmong
people involved (10:12)
(d) General Vang Pao leader of Hmong organizes
Hmong troops (10:30)
(e) Laos Government continues from (1975 to
1984) to hunt down and kill in this manner...
continued to 2004 (12:05)
(f) Weapons brought by US into Laos (9:25)
(g) Video of those weapons USA left in Laos
including CIA Helicopters (13:55) (20:30)
(h) USA brokering peace treaty 1973 via Henry
Kissinger and former US Ambassador
(11:50)
(i) What happened in Laos after USA left
the atrocities committed by government
officials including military police and others
(12:07).

7
The United has managed to avoid accountability for
this by citing Baker v. Carr as requiring dismissal this
action on the basis that it constitutes non-justiciable
political questions about various decisions concerning the
Vietnam war and the secret war in Laos.
On July 17, 2017, Defendants United States and
the CIA filed a Motion to Dismiss the Complaint under
F.R.C.P Rule 12(b)(1) based on the non-justiciable political
question doctrine.
On September 7, 2017, plaintiff filed a Memorandum
of Points and Authorities in Opposition to the Motion to
Dismiss.
On September 14, 2017, Defendants filed a Rely Brief
in Support of their Motion to Dismiss.
On January 18, 2019, The District Court issued an
Order Granting Defendants’ Motion to Dismiss. The
Trial Court found [See Order Granting Motion to dismiss,
Appendix B hereto, Page 3, line 26 – page 4, line 3]:
First, Defendants argue Plaintiffs’ claims are
barred under the political question doctrine.
(ECF No. 9-1 at 8.) Second, Defendants argue
Plaintiffs’ claims are barred under the doctrine
of sovereign immunity. (ECF No. 9-1 at 14.) For
the reasons discussed below, the Court finds
that Plaintiffs’ claims are barred under the
political question doctrine. Therefore, the Court
does not reach the issue of sovereign immunity.

8
The Court further stated at page 6:
Plaintiffs do not address the Baker factors,
but instead generally argue that their lawsuit
centers around war crimes, and therefore
cannot be subject to the political question
doctrine. (ECF No. 10 at 11–12.) This argument
lacks merit. The Ninth Circuit has clearly held
“[w]e are not a war crimes tribunal.” Alperin,
410 F.3d at 560. Acting as such would “intrud[e]
unduly on certain policy choices and value
judgments that are constitutionally committed
to Congress or the executive branch.” Koohi,
976 F.2d at 1331. Therefore, the political
question doctrine bars Plaintiffs’ claims.
Moreover, the Court finds amendment would
be futile because Plaintiffs have not articulated
any additional facts or theories that would avoid
the political question doctrine. Accordingly, the
Court dismisses Plaintiffs’ complaint without
leave to amend.
The trial Court’s dismissal did NOT mention the
breach of promise/breach of treaty claims that were
asserted by Plaintiffs/Petitioners.
A timely notice of appeal to the Ninth Circuit Court
of Appeals was filed.
The Ninth Court of Appels affirmed the decision of the
trial court on March 30, 2020. The Ninth Circuit stated
in its opinion:
1. The district court correctly determined that
Plaintiffs’ claims present nonjusticiable political

9
questions. Plaintiffs’ lawsuit would require the
court to pass judgment on United States foreign
policy in Southeast Asia for a period spanning
several decades. “It is well established that the
conduct of foreign relations is committed by the
Constitution to the political departments of the
Federal Government; and that the propriety of
the exercise of that power is not open to judicial
review.” Corrie, 503 F.3d at 983 (quotations and
alterations omitted). In addition, “[w]hether to
grant military or other aid” to the Hmong “is a
political decision inherently entangled with the
conduct of foreign relations.” Id.
2. The district court did not err in rejecting
Plaintiffs’ request for an exception to the
political question doctrine for claims based on
alleged war crimes. As we explained in Alperin,
the Court is “not a war crimes tribunal” and “[t]
o act as such would require us to intrude unduly
on certain policy choices and value judgments
that are constitutionally committed to the
political branches.” 410 F.3d at 560 (quotations
and alterations omitted). Plaintiffs acknowledge
that Alperin controls but ask us to re-examine
that decision. However, as a three-judge panel,
we are “without authority to overrule a circuit
precedent; that power is reserved to the circuit
court sitting en banc.” Newdow v. Lefevre,
598 F.3d 638, 644 (9th Cir. 2010) (quotations
omitted).
3. Insofar as Plaintiffs’ claims are based
on alleged breaches of treaties, the claims

10
remain nonjusticiable under the political
question doctrine under these circumstances.
See Republic of Marshall Islands v. United
States, 865 F.3d 1187, 1200–01 (9th Cir. 2017).
Plaintiffs have not shown that the treaties at
issue are self-executing, id. at 1192–99, or, in
some instances, that they are “treaties” under
U.S. law.
Plaintiffs/petitioners then filed this present petition.
REASON THE WRIT SHOULD BE ISSUED
Petitioners submit that the questions presented
qualify for review under Supreme Court Rule 10 (c):
(c) a state court or a United States court of
appeals has decided an important question
of federal law that has not been, but should
be, settled by this Court, or has decided an
important federal question in a way that
conﬂicts with relevant decisions of this
Court. A petition for a writ of certiorari
is rarely granted when the asserted error
consists of erroneous factual ﬁndings or the
misapplication of a properly stated rule of
law.
A. Review is Warranted to Resolve an Important
Federal Question of Whether the Court Should
Establish a Breach of Promise Exception to the
Non-Justiciable Political Question Rule
The Court should establish a breach of promise
exception to the non-justiciable political question rule.

11
The United States Supreme Court’s recent case of
McGirt v. Oklahoma, 591 US
(2020) is an example
of a case allowing legal claims based on promises made by
the USA government to Native Americans in Oklahoma.
Justice Gorsuch said so simply at page 42 of the majority
opinion:
The federal government promised the Creek a
reservation in perpetuity. Over time, Congress
has diminished that reser vation. It has
sometimes restricted and other times expanded
the Tribe’s authority. But Congress has never
withdrawn the promised reservation. As a
result, many of the arguments before us today
follow a sadly familiar pattern. Yes, promises
were made, but the price of keeping them has
become too great, so now we should just cast a
blind eye. We reject that thinking. If Congress
wishes to withdraw its promises, it must say
so. Unlawful acts, performed long enough and
with sufficient vigor, are never enough to amend
the law. To hold otherwise would be to elevate
the most brazen and longstanding injustices
over the law, both rewarding wrong and failing
those in the right. The judgment of the Court
of Criminal Appeals of Oklahoma is Reversed.
A rule of law that permits the United States to avoid
liability on a contract or treaty runs afoul of the Contracts
Clause of the United States Constitution, Article I, section
10, Clause 1:
No State shall … pass any … Law impairing
the Obligation of Contracts, or grant any Title
of Nobility.

12
There was no exception given based on the political
questions at issue in the McGirt case, including the
executive branch decision to provide the Native Americans
with a land deal that occupies about half of Oklahoma.
Nobody was able to say this executive branch decision
could not be challenged or debated in court based on the
political question doctrine, even though it is quite obviously
an example of a large, complicated, political question USA
faced when the government decided to make a form of land
compensation to the displaced Native Americans.
We have a very similar situation here. We do not doubt
that the decision to go to war or not is a political question.
We are not suing about the decision to go to war, or the
decision to end the war. We are suing about a promise
made by the USA, an executive branch promise to protect
the Hmong no matter what the outcome of the case. Our
complaint cites and quotes a “60 Minutes” interview with
Mike Wallace, in which the following is stated:
Buell: They became refugees because we was
encouraging them to fight for us; I promised
them myself have no fear we will take care of ya;
and taking care of you is not in a refugee camp
Mike Wallace: We promised; the United
States government; you as a representative of
the United States Government promised the
Hmong people; we would take care of them
Buell: Absolutely
MW: you fight for us; we’ll pay you; if we win,
fine; if we lose we’ll take care of you?
Buell: Absolutely right. I think they still have
that faith in us.

13
The complaint cites to pictures, photographs and
journalist reports in which our President of the United
States sat next to the King Of Laos and promised the King
that whatever the outcome of the secret war in Laos, USA
would protect the Hmong people.
The promise was made because everyone knew the
obvious truth, anyone who fights on the USA side will be
in big trouble after the war. The slaughter and atrocities
against the Hmong people are clearly within the zone of
highly foreseeable consequences. The Communists who
took over Laos after the war committed the following
types of atrocities against the Hmong People:
1. They used g uns, ammunition, tanks,
airplanes, barrels of poison left over by the
USA, to hunt down and kill any Hmong or
their family who were connected in any way
to the USA war in Laos. As one of their top
generals, General Bounchanh, stated, “[The
Hmong] will be exterminated to their last
root”.
The documentary “Hunted Like Animals”,
a copy of which is attached to our complaint,
tells this haunting story. In the start of the
documentary, we are shown drawings of
the mass killings the Hmong people made
on the barks of trees. We often say “never
forget the Holocaust”, but in the case of the
Hmong, the United States turned a blind
eye and allowed all the atrocities to happen.
2. The raped the young Hmong girls. There
are terrible photos showing this.

14
3. They mutilated boys. There are terrible
photos showing this.
4. They eviscerated Hmong people’s stomachs,
and left them lying with open guts spilled
out.
5. They had the older Hmong people drink a
poison pill. They were the ones who died
semi peacefully with a military of Laos
soldiers in their living room insisting on the
pill.
6. They were hunted by helicopter, ground
troops, airplanes, rounded up, tortured,
raped, mutilated, and killed. The numbers
of killed are estimated to be 330,000.
7. They poured the poisons we delivered to
Laos as part of our munitions onto the
Hmong villages, destroying the streams the
forest and making it impossible to survive.
8. They are still being hunted, raped and
killed. Literally, today and tomorrow, and
continuing into the foreseeable future, more
and more are dying.
We refer to these as the Laos atrocities against the
Hmong.
The USA is not being sued for its decision to withdraw
from the war. Instead, it is being sued for its breach of
promise to protect the Hmong. The promise was made

15
by our then President Dwight Eisenhower and later by
President John F. Kennedy. This solemn promise was that
the USA would protect the Hmong people who fought for
the USA in the Secret War in Laos. This promise has never
been denied by the Defendant USA/CIA, and is further
confirmed by the “60 Minutes” news reel [complaint,
para. 66]:
66. The following agreements are confirmed in
that taping:
a. (3:56-4:37) Edgar “Pop” Buell worked for
USAID, an adjunct of the CIA Secret War;
b. Buell: They became refugees because we
was encouraging them to fight for us; I
promised them myself have no fear we will
take care of ya; and taking care of you is not
in a refugee camp
c. Mike Wallace: We promised; the United
States government; you as a representative
of the United States Government promised
the Hmong people; we would take care of
them”
d. Buell: Absolutely
e. MW: you fight for us; we’ll pay you; if we
win, fine; if we lose we’ll take care of you?
f. Buell: Absolutely right. I think they still
have that faith in us
g. (5:00-5:30) Under the Geneva convention,
foreign powers were to pull out troops
and military advisors; both sides ignored;
Kennedy ordered the CIA to recruit the
Hmong. CIA to provide arms, training,
and salaries, and Vang Pao would supply

16

h.

i.
j.
k.
l.
m.

n.
o.

p.
q.

the troops which included men, women and
children as young as 10.
(6:18-6:35) Mike Wallace report, “CIA
personnel and Pop” Buell told us they were
ordered to keep the Hmong in combat even
though Americans on the spot realized it
was a lost cause”..
MW: we kept these guys fighting for us
B: That’s right
MW: Even after you and a lot of others
thought it was pointless
B: That’s Right
(7:04-8:05) State Department Officer
Lionel Rosenblatt directing effort refugee
in Thailand; when asked about attacking
Hmong while they left Laos.
MW: Why Kill them on the way out?
Rosenblatt: We can only theorize that there
is a real fear on the part of the authorities
in Laos and the North Vietnamese, that
the Hmong will come back to fight another
day. They have a distinguished record of
fighting; there’s a long history of animosity
between the Hmong and the Vietnamese.
MW: Is there any revenge involved because
they worked for CIA because they worked
for the United States government
R: I would assume there’s a great deal of
that, that having worked for almost 15 years
for the United States, that these people
are still seen very much as our accessories.
What happened during the war in Laos
was that the Vietnamese were stalled very
effectively by the Hmong, and that war is

17
now continuing. The full strength of the
Vietnamese army is being brought to bear
on the Hmong villages of Laos.
The USA breached its promise by not protecting the
Hmong. It said it would protect them, but it did not. The
Hmong needed to get out of Laos, or face slaughter by the
Laotian communist using leftover USA weapons. It is this
breach of promise that is the basis of liability in this case.
A breach of promise should not come within the
definition of a political question. It isn’t a legitimate
political question answer to say “Let’s just breach our
promise to the King”. See Al Shimari v. CACI Premier
Technology, Inc., 840 F.3d 147, 157 (4th Cir. 2016):
In examining the issue of direct control, when a
contractor engages in a lawful action under the
actual control of the military, we will consider
the contractor’s action to be a “de facto military
decision [ ]” shielded from judicial review under
the political question doctrine. Taylor, 658 F.3d
at 410. However, the military cannot lawfully
exercise its authority by directing a contractor
to engage in unlawful activity. Thus, when a
contractor has engaged in unlawful conduct,
irrespective of the nature of control exercised
by the military, the contractor cannot claim
protection under the political question doctrine.
The district court failed to draw this important
distinction. Accordingly, we conclude that a
contractor’s acts may be shielded from judicial
review under the first prong of Taylor only to
the extent that those acts (1) were committed

18
under actual control of the military; and (2)
were not unlawful.
It should not be so easy for the US government or its
courts to so easily wash its hands of this breach of promise.
The Ninth Circuit Court of Appeals and the US Attorney
like to say that our courts are not to be war crimes courts.
We are suing for breach of promise by the USA to protect
the Hmong people from the fallout of the USA’s Secret
War in Laos. This is a case that should be allowed in the
same way the US Supreme Court ruled the issues of an
official Executive Branch promise could be enforced in
the McGirt case.
As for whether this promise or agreement or treaty,
as we call it, ever made it through the treaty procedure
in the United States Senate, we point out the following: 1.
This was a secret war, so there are only secret files which
Plaintiffs and counsel could never obtain. 2. The CIA
directly hired the Hmong soldiers, they were officially
USA Soldiers, paid for out of the CIA budget. We have no
idea where the CIA obtained line item funding for this,
but it is not a stretch of the imagination to see that, of
course, the intelligence oversight committees of Congress
approved this secret war and the hiring of Hmong soldiers.
As a reasonably foreseeable result of the promises
made President to King, which included the solemn
promise that the USA will protect the Hmong however
the war turns out, the Hmong people did in fact risk their
lives to come fight for the USA, and by all accounts were
some of the best soldiers we’ve ever had. They are referred
to as “sky soldiers” for their abilities to climb high into the
jungle trees and shoot down at the enemy.

19
We cite the ages old doctrine of promissory estoppel
to bar the government from somehow claiming that
the treaty was not authorized by the US Senate. It
was authorized enough for a two Presidents, President
Eisenhower and President Kennedy, to make direct face to
face promises to the Laos King. It was signed off enough
to permit the CIA to hire these soldiers and put them into
USA military uniforms, provide them with weapons, and
teach and direct them to fight our enemy.
If it was executed enough to do all that, the doctrine of
promissory estoppel applies to bar the USA from somehow
denying its promise. See Hackney v. Morelite Const. 418
A.2d 1062, 1066 (DC Cir. 1980):
There are several situations where courts may
refuse to allow the defendant to interpose a
statute of frauds defense even if it is properly
raised: “[I]n the early history of the statute a
defendant was denied the privilege of pleading
[it] in three main instances: (a) where his own
fraud was responsible for the non-existence of
the required signed memorandum [equitable
estoppel]; (b) where the equitable doctrine of
part performance was applicable [promissory
estoppel], and (c) where the defendant has
admitted the contract [waiver].” Wolf v. Crosby,
377 A.2d 22, 26 (Del.Ch.1977).
Because the business with the Hmong happened as
part of the US/CIA Secret War in Laos (the official title
of this war), this verbal promise and verbal treaty may or
may not have been approved by the United States Senate.
Petitioners do not have access to that secret consent to a

20
treaty about a secret war. But the doctrine of equitable
estoppel and promissory estoppel would prevent the
USA denying the verbal promise on this basis. In the
Court of Appeals decision regarding this treaty issue, the
Court stated: “Plaintiffs have not shown that the treaties
at issue are self-executing, id. at 1192–99, or, in some
instances, that they are “treaties” under U.S. law.”. If it
was executory enough to make Hmong people become
USA soldiers, wear a USA soldier’s uniform, get trained
for fighting for the USA, and then actually go to battle,
its executing enough to be binding.
It should be pointed out that nowhere in any of the
discussions given below by the US Attorneys office has
there ever been a denial of the fact that the promise was
made and or that it was breached. Instead, its claim
is the USA cannot be sued for its decision to make a
promise and breach it. The case of McGirt v. Oklahoma,
591 US
(2020) shows that actually, the United States
does have to live up to its promises.
This is an adoptive admission as defined by Fed.R.Evid.
Rule 801(d)(2)(B):
(d) Statements That A re Not Hearsay. A
statement that meets the following conditions
is not hearsay:
***
(2) An Opposing Par ty’s Statement. The
statement is offered against an opposing
party and:

21
***
(B) is one the party manifested that it adopted
or believed to be true
The USA’s Motion to Dismiss for lack of subject matter
jurisdiction under Fed. Rules of Civil Procedure Rule 12(b)
(1), based on the non-justiciable political question doctrine,
should have been denied. The Court of Appeals for the
Ninth Circuit should have reversed the order Granting the
Motion to Dismiss and Judgment of Dismissal. Petitioner’s
seek review before the United States Supreme Court to
bring real justice to these victims of an admitted USA
promise to protect them. We seek review to obtain a
reversal of the Judgment of Dismissal and Granting of
the Motion to Dismiss, to permit the case to proceed on
its substantive merit.
B. Review is Warranted Because This Case Presents an
Important Federal Question of Whether the Court
Should Establish a Breach of Treaty Exception to
the Non-Justiciable Political Question Rule
The Supremacy Clause of the United States
Constitution, A r ticle V I, section 2 states: “ This
Constitution, and the Laws of the United States which
shall be made in pursuance thereof, and all Treaties made,
or which shall be made, under the authority of the United
States, shall be the supreme Law of the Land; and the
Judges in every State shall be bound thereby, any Thing
in the Constitution or Laws of any State to the contrary
notwithstanding.”

22
Article II, section 2 of the U.S. Constitution, which
states in part:
[The President] shall have Power, by and with
the Advice and Consent of the Senate, to make
Treaties, provided two thirds of the Senators
present concur
The Ninth Circuit Court of Appeals ruled in this case
in part as follows:
Plaintiffs’ claims are based on alleged breaches
of treaties, the claims remain nonjusticiable
under the political question doctrine under
these circumstances. See Republic of Marshall
Islands v. United States, 865 F.3d 1187, 1200–01
(9th Cir. 2017). Plaintiffs have not shown that
the treaties at issue are self-executing, id. at
1192–99, or, in some instances, that they are
“treaties” under U.S. law. AFFIRMED.”
See Memorandum of Opinion by Ninth Circuit, page 4.
What the Court of Appeals refer to as non-selfexecuting was very much executed in fact by the decision
of the King of Laos to proceed to the Hmong King, General
Vang Pao, to actually in fact convince Hmong soldiers
some of whom were as young as 12 to eagerly sign up for
the most prestigious job in the land: becoming a USA
Soldier.
Initially, it should be pointed out that there is
published caselaw showing that a private party has
standing to bring an action based on violation of a treaty.

23
See Presbyterian Church of Sudan v. Talisman Energy,
582 F.3d 244, 255 (2d Cir. 2009):
In Sosa, the Court explained that the ATS
“was intended as jurisdictional in the sense of
addressing the power of the courts to entertain
cases concerned with a certain subject,” 542
U.S. at 714, 124 S. Ct. 2739, and that “[t]he
jurisdictional grant is best read as having been
enacted on the understanding that the common
law would provide a cause of action for the
modest number of international law violations
with a potential for personal liability at the
time,” id. at 724, 124 S. Ct. 2739. Claims “based
on the present-day law of nations” should be
recognized only if “accepted by the civilized
world and defined with a specificity comparable
to the features of the 18th-century paradigms”
contemporary with enactment of the ATS. Id.
at 725, 124 S. Ct. 2739.
The Court of Appeals reliance on Republic of Marshall
Islands v. United States, 865 F.3d 1187, 1200–01 (9th Cir.
2017) is misplaced because of the following:
A. In the present action, the USA already
decided to make a promise/treaty to protect
the Hmong from the fallout of the Secret
War in Laos. We are not seeking an order
to create this promise, we are seeking an
order to enforce the promise. As noted in
McGirt v. Oklahoma, 591 US
(2020),
courts are equipped with all that is needed
to enforce a promise. What a court could not

24
do, and wouldn’t do in Republic of Marshall
Islands v. United States, is to force the USA
to make this promise. We aren’t asking this
court to make a promise or force the USA
to make a promise. The USA already made
the promise. We are seeking a remedy for
breach of promise, which was expressly
upheld and allowed in McGirt v. Oklahoma,
591 US
(2020).
B. The present action does not seek to bring
together a complex multi-lateral negotiation
of a treaty as in the case of Marshall Islands.
In this matter, the verbal treaty was made,
the promise was made, and what is left is
enforcement of the breach of promise.
As for legal support for the simple rule that the
government should not be permitted to use the nonjusticiable political question defense on a breach of
promise, the United States Supreme Court’s recent case of
McGirt v. Oklahoma, 591 US
(2020) provides support
for the concept that there is no sidestepping a breach of
treaty.
A rule of law that permits the United States to avoid
liability on a contract or treaty runs afoul of the Contracts
Clause of the United States Constitution, Article I, section
10, Clause 1:
No State shall … pass any … Law impairing
the Obligation of Contracts, or grant any Title
of Nobility.

25
As noted above, with respect to breach of promise
claim, the doctrines of equitable estoppel, promissory
estoppel, and admission of agreement would all work to
bar any defense by the United States based on the treaty
not being self-executing. See Hackney v. Morelite Const.
418 A.2d 1062, 1066 (1980), quoted and discussed above.
Accordingly, the sole case relied upon by the Court
of Appeals is not at all like our present case. Our present
case is much more like McGirt v. Oklahoma, as the treaty
was made, and the government needs to be held to its
treaty agreement.
The USA’s Motion to Dismiss for lack of subject matter
jurisdiction under Fed. Rules of Civil Procedure Rule 12(b)
(1), based on the non-justiciable political question doctrine,
should have been denied. The Court of Appeals for the
Ninth Circuit should have reversed the order Granting the
Motion to Dismiss and Judgment of Dismissal. Petitioner’s
seek review before the United States Supreme Court to
bring real justice to these victims of an admitted USA
promise to protect them. We seek review to obtain a
reversal of the Judgment of Dismissal and Granting of
the Motion to Dismiss, to permit the case to proceed on
its substantive merit.
C. Review is Warranted Because This Case Presents
an Important Federal Question of Whether the
Court Should Establish a War Crimes Exception
to the Non-Justiciable Political Question Rule
The complaint contains allegations that the USA was
complicit in the war crimes of the Laos communist regime,
by the following overt acts:

26
1. The USA’s Secret War in Laos was done not
through the branches of the US military,
but was instead done by the USA’s Central
Intelligence Agency. It is this reason the
CIA is the defendant as it is the actual doer
of what is complained on. The complaint
points out that the CIA brought over the top
state of the art grade in military weaponry.
When the USA pulled out, it left all this
weaponry. It was the weapons left over by
the USA which became the murder and
genocide weapons brought to eliminate the
Hmong in Laos. In this way the USA is
charged with aiding and abetting the Laos
mass genocide rape torture of the Hmong
people in Laos.
2. One of our petitioners is a former commander
of a Hmong base in Laos, and is a witness to
the Laotian Communists taking the control
of all weapons and later using them to hunt
Hmong in the jungles [Complaint, para. 22].
3. Another witness we have is a former US
AID official, then a Laotian citizen, who
was in charge of the Royal Laos weapons
warehouses. He was required to turn over
those weapons, all of top military grade
supplied by USA, to the Laotian communist
regime. [Complaint, para. 24].
4. There is no question that these weapons
were used by Laos communist to hunt
down and kill the Hmong. See “Hunted

27
Like Animals” [https://www.youtube.com/
watch?v=dWUZ2OrDXt4] where in the
first part of the documentary the following
course of events is discussed [Complaint,
para. 64-66]:
a. History of Laos segment (8:23)
b. King of Laos at White House (9:58)
c. King recommendation to have the
Hmong people involved (10:12)
d. General Vang Pao leader of Hmong
organizes Hmong troops (10:30)
e. Laos Government continues from
(1975 to 1984) to hunt down and kill
in this manner...continued to 2004
(12:05)
f. Weapons brought by US into Laos
(9:25)
g. Video of those weapons USA left
in Laos including CIA Helicopters
(13:55) (20:30)
h. USA brokering peace treaty 1973
via Henry Kissinger and former
US Ambassador (11:50)
i. What happened in Laos after
USA left the atrocities committed
by government officials including
military police and others (12:07).
5. Another kind of weapon left behind by USA
were military airplanes capable of carrying
barrels of some kind of yellowish powder
that when dropped on to the jungles of their
hideouts would kill everything and poison
the water [Complaint, paras. 40, 61].

28
Note: YouTube took down the entire documentary
“Hunted Like Animals”, but snippets are still available.
Petitioners attached as Exhibit A to their complaint a
full DVD copy of the documentary via Manual File with
the District Court. The documentary was apparently too
graphic for YouTube.
The complaint did not take issue with the USA’s
obviously political decision to pull out of Laos. That kind
of decision is not what we seek liability on at all. The
complaint does not base liability on the political question
of whether the USA should protect the Hmong. It is not
that at all.
Instead, Petitioners say the USA did choose to protect
the Hmong, and did promise to protect the Hmong, and
based on that promise the Hmong were thereby induced to
come forward for CIA training, gained USA soldier status,
and became in fact a real, huge supply of fearless and
highly-capable soldiers. They had a mission to destroy the
supply chain of the Ho Chi Minh trail, which snaked from
Vietnam into Laos. By every account, the Hmong were
excellent soldiers. Many paid the ultimate price in this
service and died in battle. Many did not die and survived.
The complaint states that when the USA pulled out
and left the weapons in Laos, it knew (it is the CIA, so of
course it knew) that the Laotian Communists would use
those weapons to hunt down and murder all Hmong and
all related families of any Hmong USA/CIA soldier.
The complaint states that after the USA withdrawal,
as would be expected, the official program of Laos began
a program to hunt down the Hmong and kill them, using
the USA/CIA weapons left behind.

29
Aiding and abetting a war crime should not come
within the definition of a political question. It is not a
legitimate political question answer to say, “Let’s go
commit a genocide”.
Petitioners recognize that a genocide mass murder
such as complained of here would most certainly involve
decision making by the political branches of government.
The Secret War in Laos was created in the executive
branch by and through the CIA, pursuant to our nations
spy powers. It crossed over to military operations, though,
and was all done at the behest and control of the then-sitting
Presidents of the United States. There is no doubt that the
decision to enter into the promise and treaty with the King
of Laos to employ and deploy Hmong citizens of Laos into
the USA’s secret war in Laos; to promise/treaty to protect
the Hmong from the fall out of their military assistance to
the United States; to negotiate a series of so-called peace
treaties; to leave Laos; to leave all the weaponry involved
were decisions made through the highest levels of the USA
executive branch and legislative branches.
The Executive Branch and the Senate’s treaty powers
are described in Article II of the US Constitution. See
especially Article II sections 1 (“The executive Power shall
be vested in a President of the United States of America”)
and 2 (powers of the President, including Commander in
Chief of the Army and Navy, and the Power, by and with
the Advice and Consent of the Senate, to make Treaties,
provided two thirds of the Senators present concur).
War crimes would normally fit on all fours within the
definition of a political question given to a constitutionallyempowered branch of government and under the Baker

30
v. Carr, 369 U.S. 186 (1962) standards. It is alleged in the
complaint that when the USA pulled out of Laos, it did so
knowing the Communist regime would hunt and eliminate
the Hmong. This kind of high-level government operations
required for these high-level genocidal mass torture rape
crimes all fit the definition of political question matter
under Baker v. Carr, 369 U.S. 186 (1962). Baker v. Carr,
is a Court-made rule. It needs an exception, which this
case requests. The exceptions should be for breach of
promise, that is never a legitimate answer to a political
question, and an exception for war crimes or aiding and
abetting war crimes.
Legal support of this requested war crimes exception
to the non-justiciable political question rule is found in the
case of Alperin v. Vatican Bank, 410 F.3d 532, 564 (9th Cir.
2005), which involves Nazi war crimes causing property
damage that were permitted to proceed:
In the landscape before us, this lawsuit
is the only game in town with respect to
claimed looting and profiteering by the Vatican
Bank. No ongoing government negotiations,
agreements, or settlements are on the horizon.
The outside chance that the Executive Branch
will issue a statement in the future that has the
“potentiality of embarrassment” when viewed
against our decision today does not justify
foreclosing the Holocaust Survivors’ claims,
especially when “[t]he age and health of many
of the class members also presses for a prompt
resolution.” In re Holocaust Victim Assets
Litig., 105 F.Supp.2d at 148.

31
In sum, none of the Baker formulations is
“inextricable” from the Property Claims.
See Baker, 369 U.S. at 217, 82 S.Ct. 691.
The Holocaust Survivors have presented a
justiciable controversy.
Alper in suffers from a bit of a disassociated
personality disorder by simultaneously stating
We are not a war crimes tribunal. To act as
such would require us to ‘intrud[e] unduly on
certain policy choices and value judgments that
are constitutionally committed to [the political
branches,]’ Koohi, 976 F.2d at 1331, for we do
not and cannot know why the Allies made the
policy choice not to prosecute the Ustasha and
the Vatican Bank.
410 F.3d at 560.
Our case is about a breach of promise to protect;
breach of treaty promise to protect; and aiding and
abetting the commission of war crimes. It is nevertheless
asked to be a war crimes tribunal, because plaintiffs/
petitioners are civil litigants who are not empowered
to proceed with any type of prosecution of war crimes.
The Laos atrocities were presented to the war crimes
prosecutor in the International Criminal Court in The
Hague, Netherlands by counsel for petitioners herein.
The Chief Prosecutor for the ICC rejected the case was
rejected because Laos is not a signatory to the treaty
establishing the International Criminal Court., and
therefore it was without jurisdiction to prosecute the Laos
officials for the claimed war crimes.

32
This Court denied a previous petition for certiorari
in our similar action under the Alien Tort Claims Act.
See Hmong 1 v. Lao People’s Democratic Republic, 139
S.Ct. 2721 (2019). The International Criminal Court in
The Hague denied prosecution, so no relief may be found
there. As given above in Alperin, this lawsuit in this
neighborhood of claim “is the only game in town”; this
Court is the last stop. Under this “no other game in town”
rule, Petitioner’s case should be permitted to proceed on
its merits. The
Al Shimari v. CACI Premier Technology, Inc. 840
F.3d 147, 157 (4th Cir. 2016) allowed a civil lawsuit over
private military operators in Iraq who were accused of war
crimes; the defense of non-justiciable political question was
held not to apply because the war crimes were ultra vires:
In examining the issue of direct control, when a
contractor engages in a lawful action under the
actual control of the military, we will consider
the contractor’s action to be a “de facto military
decision [ ]” shielded from judicial review under
the political question doctrine. Taylor, 658 F.3d
at 410. However, the military cannot lawfully
exercise its authority by directing a contractor
to engage in unlawful activity. Thus, when a
contractor has engaged in unlawful conduct,
irrespective of the nature of control exercised
by the military, the contractor cannot claim
protection under the political question doctrine.
The district court failed to draw this important
distinction. Accordingly, we conclude that a
contractor’s acts may be shielded from judicial
review under the first prong of Taylor only to

33
the extent that those acts (1) were committed
under actual control of the military; and (2)
were not unlawful.
As for legal support for the simple rule that the
government should not be permitted to use the nonjusticiable political question defense on a breach of
promise, the United States Supreme Court’s recent case
of McGirt v. Oklahoma, 591 US
(2020) provides
support for the concept that there is no sidestepping a
breach of treaty.
The USA’s Motion to Dismiss for lack of subject matter
jurisdiction under Fed. Rules of Civil Procedure Rule 12(b)
(1), based on the non-justiciable political question doctrine,
should have been denied. The Court of Appeals for the
Ninth Circuit should have reversed the order Granting the
Motion to Dismiss and Judgment of Dismissal. Petitioner’s
seek review before the United States Supreme Court to
bring real justice to these victims of an admitted USA
promise to protect them. We seek review to obtain a
reversal of the Judgment of Dismissal and Granting of
the Motion to Dismiss, to permit the case to proceed on
its substantive merit.

34
CONCLUSION
Based on the foregoing, the petition for writ of
certiorari should be granted as to the questions presented
or such other questions as the Court may permit.
			Respectfully Submitted,
Herman Franck
Counsel of Record
Franck & A ssociates
910 Florin Road, Suite 212
Sacramento, California 95831
(916) 447-8400
franckhermanlaw88@yahoo.com
Attorneys for Petitioners

APPENDIX

1a
A
APPENDIX A —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, DATED MARCH 30, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15226
D.C. No. 2:17-cv-00927-TLN-AC
HMONG 2; et al.,
Plaintiffs-Appellants,
v.
UNITED STATES OF AMERICA;
CENTRAL INTELLIGENCE AGENCY,
Defendants-Appellees.
MEMORANDUM*
Appeal from the United States District Court
for the Eastern District of California
Troy L. Nunley, District Judge, Presiding
Submitted March 26, 2020**
San Francisco, California
* This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
Appendix A
Before: GOULD, CHRISTEN, and BRESS, Circuit
Judges.
In this putative class action under the Federal Tort
Claims Act, 28 U.S.C. § 1346(b)(1), Plaintiffs allege that
the United States failed to protect the Hmong people
from atrocities that the communist government in Laos
perpetrated after the Vietnam War. Plaintiffs claim that
in exchange for Hmong assistance during the war, the
United States, including through verbal assurances from
Presidents Eisenhower and Kennedy, promised to protect
the Hmong from retribution by the Laotian government,
but then failed to do so. The district court dismissed the
case for lack of subject matter jurisdiction under the
political question doctrine. We affirm.
1. Plaintiffs in their opening brief “agree that the
conduct of the United States in not holding up its part of the
treaty in protecting the Hmong soldiers and their families
constitutes political question issues within the meaning
of Baker v. Carr, 369 U.S. 186 (1962).” That concession
is well-taken. To determine whether a claim presents a
political question, the Court considers the Baker v. Carr
factors and asks whether the claim inextricably involves:
[1] a textually demonstrable constitutional
commitment of the issue to a coordinate political
department; or [2] a lack of judicially discoverable
and manageable standards for resolving it; or
[3] the impossibility of deciding without an
initial policy determination of a kind clearly for
nonjudicial discretion; or [4] the impossibility of

3a
Appendix A
a court’s undertaking independent resolution
without expressing lack of the respect due
coordinate branches of government; or [5] an
unusual need for unquestioning adherence
to a political decision already made; or [6]
the potentiality of embarrassment from
multifarious pronouncements by various
departments on one question.
Baker, 369 U.S. at 217. The presence of any of these
factors is enough to present a political question, although
the factors “often collaps[e]” into each other. Alperin
v. Vatican Bank, 410 F.3d 532, 544 (9th Cir. 2005). If
a case presents a political question, federal courts lack
subject matter jurisdiction to consider it. See Corrie v.
Caterpillar, Inc., 503 F.3d 974, 979–81 (9th Cir. 2007).
The district court correctly determined that Plaintiffs’
claims present nonjusticiable political questions. Plaintiffs’
lawsuit would require the court to pass judgment on
United States foreign policy in Southeast Asia for a
period spanning several decades. “It is well established
that the conduct of foreign relations is committed by the
Constitution to the political departments of the Federal
Government; and that the propriety of the exercise of that
power is not open to judicial review.” Corrie, 503 F.3d
at 983 (quotations and alterations omitted). In addition,
“[w]hether to grant military or other aid” to the Hmong “is
a political decision inherently entangled with the conduct
of foreign relations.” Id.

4a
Appendix A
2. The district court did not err in rejecting Plaintiffs’
request for an exception to the political question doctrine
for claims based on alleged war crimes. As we explained
in Alperin, the Court is “not a war crimes tribunal”
and “[t]o act as such would require us to intrude unduly
on certain policy choices and value judgments that are
constitutionally committed to the political branches.”
410 F.3d at 560 (quotations and alterations omitted).
Plaintiffs acknowledge that Alperin controls but ask us
to re-examine that decision. However, as a three-judge
panel, we are “without authority to overrule a circuit
precedent; that power is reserved to the circuit court
sitting en banc.” Newdow v. Lefevre, 598 F.3d 638, 644
(9th Cir. 2010) (quotations omitted).
3. Insofar as Plaintiffs’ claims are based on alleged
breaches of treaties, the claims remain nonjusticiable
under the political question doctrine under these
circumstances. See Republic of Marshall Islands v.
United States, 865 F.3d 1187, 1200–01 (9th Cir. 2017).
Plaintiffs have not shown that the treaties at issue are
self-executing, id. at 1192–99, or, in some instances, that
they are “treaties” under U.S. law.
AFFIRMED.

5a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF CALIFORNIA, DATED
JANUARY 18, 2019
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
No. 2:17-cv-00927-TLN-AC
HMONG 2 ET AL., FICTITIOUS NAMES,
ON BEHALF OF THEMSELVES AND AS
REPRESENTATIVES OF MEMBERS OF A CLASS
OF SIMILARLY SITUATED CLAIMANTS,
Plaintiffs,
v.
UNITED STATES OF AMERICA,
CENTRAL INTELLIGENCE AGENCY,
Defendants.
ORDER GRANTING DEFENDANTS’
MOTION TO DISMISS
This matter is before the Court pursuant to Defendants
United States of America (“United States”) and Central
Intelligence Agency’s (collectively, “Defendants”)
Motion to Dismiss. (ECF No. 9.) Plaintiffs Hmong 2,
Hmong 3, Hmong 4, and Hmong 5, fictitious names,
(collectively, “Plaintiffs”), on behalf of themselves and

6a
Appendix B
as representatives of members of a class of similarly
situated claimants, filed an opposition, (ECF No. 10), and
Defendants filed a reply, (ECF No. 12). For the reasons
set forth below, the Court hereby GRANTS Defendants’
Motion to Dismiss without leave to amend. (ECF No. 9.)
I.

FACTUAL AND PROCEDURAL BACKGROUND

On May 2, 2017, Plaintiffs filed a putative class
action complaint against Defendants alleging that they
aided and abetted violations of foreign and international
law against the Hmong people in Laos. (ECF No. 2.)
Specifically, Plaintiffs contend that Defendants recruited
the Hmong people to fight against communist forces in
the Vietnam War, but then failed to protect them from
atrocities carried out by the Laotian communist regime
after the United States exited the Vietnam War. (ECF
No. 2 ¶¶ 22, 31.) On behalf of themselves and similarly
situated persons, Plaintiffs now seek various legal and
equitable remedies pursuant to the Federal Tort Claims
Act (“FTCA”). (ECF No. 2 ¶ 21.)
Plaintiffs allege that Defendants recruited, armed,
funded, and trained Hmong soldiers as a “Secret Army”
to fight against communist forces in Laos during the
Vietnam War. (ECF No. 2 ¶¶ 1, 40–45, 56, 147.) Plaintiffs
allege that the Hmong Secret Army opposed the Pathet
Lao, a communist political faction in Laos. (ECF No. 2
¶ 149.) Plaintiffs further allege that certain United States
officials, including President Eisenhower and President
Kennedy, provided verbal assurances that the United
States would protect the Hmong people regardless of the

7a
Appendix B
outcome of these conflicts. (ECF No. 2 ¶¶ 25, 30, 35, 65.)
However, Plaintiffs allege that in May 1975, the Pathet Lao
came to power and began a campaign of atrocities against
hundreds of thousands of Hmong veterans of the “Secret
War” and their descendants, including rape, mutilation,
torture, disembowelments, and poisoning. (ECF No. 2
¶¶ 2–3, 6, 9, 13, 146, 148–54, 164–66.) Plaintiffs allege
that the Laotian government committed these acts in
retaliation of the Hmong people’s military service for the
United States in the Vietnam War. (ECF No. 2 ¶ 149.)
Plaintiffs allege that the atrocities committed by
the Laotian government violate the Vientiane Ceasefire
Agreement, as well as the 1962 Geneva Convention, the
1966 United Nations International Covenant on Civil and
Political Rights, the 1948 Convention on the Prevention
and Punishment of the Crime of Genocide, and Laotian
criminal laws. (ECF No. 2 ¶¶ 16–18, 128–46.) Plaintiffs
“seek[] to impose liability on the [United States] under
the [FTCA] based on its conduct in aiding and abetting
the war crimes committed by Laos against the Hmong
people.” (ECF No. 2 ¶ 92.) According to Plaintiffs,
Defendants “purposefully availed themselves [of] the
benefit of working with Hmong soldiers in Laos, and then
purposefully left those very soldiers to be murdered and
killed by Laos officials, and to have their families suffer
. . . atrocities in Laos.” (ECF No. 2 ¶ 22.) Plaintiffs assert
that the United States should have proposed “some kind
of diplomatic solution” or “lobbied for UN Sanctions,” but
instead the United States “chose as a strategic goal to help
the Hmong do nothing.” (ECF No. 2 ¶ 58.)

8a
Appendix B
Each Plaintiff alleges that he is “a direct victim of
the atrocities committed against the Hmong people by
Laos generally,” was “directly and physically injured in
Laos,” and had family members who “were also killed by
Laotian officials.” (ECF No. 2 ¶¶ 108, 111, 114, 117.) Each
Plaintiff uses a fictitious name to protect his true identity
and protect himself from retaliation by Laotian officials.
(ECF No. 2 ¶¶ 106, 109, 112, 115, 118.) Each Plaintiff
seeks damages exceeding $5 million, attorneys’ fees, and
court costs. (ECF No. 2 at 43–44.) Plaintiffs also request
“declaratory relief finding that the Defendants are liable
under the [FTCA],” as well as “injunctive relief in the
form of specific performance,” whereby the United States
would be compelled “to protect and safeguard the Hmong
people from the Laotian government.” (ECF No. 2 ¶¶ 170,
173; ECF No. 2 at 44.)
II. STANDARD OF LAW
Federal Rule of Civil Procedure (“Rule”) 12(b)(1)
allows a party, or the Court on its own initiative, to
challenge the court’s subject matter jurisdiction at any
stage in the litigation. Fed. R. Civ. P. 12(b)(1) & (h)(3);
Arbaugh v. Y&H Corp., 546 U.S. 500, 506 (2006). Once
a party has moved to dismiss for lack of subject matter
jurisdiction under Rule 12(b)(1), the opposing party
bears the burden of establishing the court’s jurisdiction
by putting forth “the manner and degree of evidence
required” by whatever stage of the litigation the case
has reached. Lujan v. Defs. of Wildlife, 504 U.S. 555, 561
(1992). If the court determines at any time that it lacks
subject matter jurisdiction, “the court must dismiss the
action.” Fed. R. Civ. P. 12(h)(3).

9a
Appendix B
III. ANALYSIS
Defendants move to dismiss Plaintiffs’ complaint on
two grounds. First, Defendants argue Plaintiffs’ claims
are barred under the political question doctrine. (ECF No.
9-1 at 8.) Second, Defendants argue Plaintiffs’ claims are
barred under the doctrine of sovereign immunity. (ECF
No. 9-1 at 14.) For the reasons discussed below, the Court
finds that Plaintiffs’ claims are barred under the political
question doctrine. Therefore, the Court does not reach the
issue of sovereign immunity.
“The nonjusticiability of a political question is primarily
a function of the separation of powers.” Baker v. Carr,
369 U.S. 186, 210 (1962). “The political question doctrine
serves to prevent the federal courts from intruding unduly
on certain policy choices and value judgments that are
constitutionally committed to Congress or the executive
branch.” Koohi v. United States, 976 F.2d 1328, 1331 (9th
Cir. 1992). While the political question doctrine raises both
jurisdictional and prudential concerns, “it is at bottom
a jurisdictional limitation imposed on the courts by the
Constitution, and not by the judiciary itself.” Corrie v.
Caterpillar, 503 F.3d 974, 981 (9th Cir. 2007). Therefore,
courts lack subject matter jurisdiction over cases that
present political questions. Id. at 982.
Not every case that “touches foreign relations lies
beyond judicial cognizance.” Baker, 369 U.S. at 211. To
determine whether an issue is a political question that the
court is barred from hearing, the court considers whether
“a matter has in any measure been committed by the

10a
Appendix B
Constitution to another branch of government.” Baker,
369 U.S. at 210. In Baker, the Supreme Court established
six formulations to consider when determining whether a
case presents a non-justiciable political question:
[1] a textually demonstrable constitutional
commitment of the issue to a coordinate political
department; or [2] a lack of judicially discoverable
and manageable standards for resolving it; or
[3] the impossibility of deciding without an
initial policy determination of a kind clearly for
nonjudicial discretion; or [4] the impossibility of
a court’s undertaking independent resolution
without expressing lack of the respect due
coordinate branches of government; or [5] an
unusual need for unquestioning adherence
to a political decision already made; or [6]
the potentiality of embarrassment from
multifarious pronouncements by various
departments on one question.
Baker, 369 U.S. at 217. These six formulations, now
commonly referred to as independent tests, “are more
discrete in theory than in practice, with the analyses often
collapsing into one another.” Alperin v. Vatican Bank, 410
F.3d 532, 544 (9th Cir. 2005). Further, to find a political
question, the court need only conclude that one of the six
tests is satisfied. Republic of the Marsh. Islands v. United
States, 865 F.3d 1187, 1200 (9th Cir. 2017).
Here, all six Baker tests favor dismissal. First,
Plaintiffs challenge matters expressly committed to the

11a
Appendix B
executive and legislative branches by the Constitution—
the conduct of foreign relations and military affairs in
Laos during and following the Vietnam War. As the
Supreme Court has long recognized, “[t]he conduct of the
foreign relations of our Government is committed by the
Constitution to the Executive and Legislative [branches]
. . . , and the propriety of what may be done in the exercise
of this political power is not subject to judicial inquiry or
decision.” Oetjen v. Cent. Leather Co., 246 U.S. 297, 302
(1918). Further, “[w]hether to grant military or other aid to
a foreign nation is a political decision inherently entangled
with the conduct of foreign relations.” Corrie, 503 F.3d at
983. Therefore, Plaintiffs seek resolution of an issue that
is expressly committed to the political branches.
Turning to the second and third Baker tests, this
case requires the Court to review and pass judgment
on foreign policy and military strategy, which are policy
determinations that lack discoverable and manageable
judicial standards. “To determine whether drastic
measures should be taken in matters of foreign policy and
national security is not the stuff of adjudication, but of
policymaking.” Schneider v. Kissinger, 412 F.3d 190, 197
(D.C. Cir. 2005). “[J]udicial restraint in the area of foreign
affairs is often appropriate because such cases ‘frequently
turn on standards that defy judicial application, or involve
the exercise of a discretion demonstrably committed to
the executive or legislature.’” Harbury v. Hayden, 522
F.3d 413, 419 (D.C. Cir. 2008) (quoting Baker, 369 U.S. at
211). Moreover, although Plaintiffs maintain this action
under the FTCA, “recasting foreign policy . . . questions
in tort terms does not provide standards for making or

12a
Appendix B
reviewing foreign policy judgments.” Schneider, 412 F.3d
at 197. Accordingly, there are no judicially discoverable
and manageable standards to guide the resolution of
Plaintiff’s claims.
The fourth, fifth, and sixth Baker tests also favor
dismissal as the conduct of the United States toward the
Hmong people in Laos “is not only a decision committed
to the political branches, but a decision those branches
have already made.” Corrie, 503 F.3d at 983. The political
branches made policy decisions regarding the presence and
extent of the United States’ foreign military involvement
in Laos decades ago, and the Court simply “could not find
in favor of the plaintiffs without implicitly questioning,
and even condemning, United States foreign policy.” Id.
at 984; see Saldana v. Occidental Petroleum Corp., 774
F.3d 544, 555 (9th Cir. 2014) (dismissing an action where
a judgment for the plaintiffs “would necessarily conflict
with and denounce our government’s official actions”).
Plaintiffs do not address the Baker factors, but
instead generally argue that their lawsuit centers around
war crimes, and therefore cannot be subject to the political
question doctrine. (ECF No. 10 at 11–12.) This argument
lacks merit. The Ninth Circuit has clearly held “[w]e are
not a war crimes tribunal.” Alperin, 410 F.3d at 560. Acting
as such would “intrud[e] unduly on certain policy choices
and value judgments that are constitutionally committed
to Congress or the executive branch.” Koohi, 976 F.2d
at 1331. Therefore, the political question doctrine bars
Plaintiffs’ claims. Moreover, the Court finds amendment
would be futile because Plaintiffs have not articulated any

13a
Appendix B
additional facts or theories that would avoid the political
question doctrine. Accordingly, the Court dismisses
Plaintiffs’ complaint without leave to amend.
IV. CONCLUSION
For the foregoing reasons, the Court hereby GRANTS
Defendants’ Motion to Dismiss without leave to amend.
(ECF No. 9.)
Dated: January 16, 2019
/s/ Troy L. Nunley
Troy L. Nunley
United States District Judge

